Se
I

2311 Douglas Street
Omaha, Nebraska 68102-1214

1-800-225-6964
(402) 342-2831

Fax: (402) 342-4850 No. 20-982

SHARON LYNN BROWN, Petitioner,

vs.

C@OCKLE

Legal Briefs

Est. 1923

POLK COUNTY, WISCONSIN, et al., Respondents.

AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 23rd day of February, 2021, send out
from Omaha, NE 2 package(s) containing 3 copies of the BRIEF AMICI CURIAE NATIONAL ALLIANCE TO END
SEXUAL VIOLENCE, NATIONAL INDIGENOUS WOMEN’S RESOURCE CENTER, INC., BATTERED WOMEN’S
JUSTICE PROJECT, WISCONSIN COALITION AGAINST SEXUAL ASSAULT, MINNESOTA COALITION AGAINST
SEXUAL ASSAULT, COLUMBIA LAW SCHOOL SEXUALITY AND GENDER LAW CLINIC, MINNESOTA INDIAN
WOMEN SEXUAL ASSAULT COALITION, ALLIANCE OF TRIBAL COALITIONS TO END VIOLENCE, MENDING
THE SACRED HOOP, STANDPOINT, GENDER JUSTICE, AND OUR JUSTICE IN SUPPORT OF PETITIONER
SHARON LYNN BROWN in the above entitled case. All parties required to be served have been served by Priority Mail.

Packages were plainly addressed to the following:
SEE ATTACHED

To be filed for:
KATHERINE S. BARRETT WIIK
Counsel of Record
BEST & FLANAGAN LLP
60 South Sixth Street, Suite 2700
Minneapolis, MN 55402
Phone: 612-341-9710
kbarrettwiik@bestlaw.com

Counsel of Record for Amici National Alliance to
End Sexual Violence, National Indigenous Women’s
Resource Center, Inc., Battered Women’s Justice
Project, Wisconsin Coalition Against Sexual Assault,
Minnesota Coalition Against Sexual Assault,
Columbia Law School Sexuality and Gender

Law Clinic, Minnesota Indian Women Sexual
Assault Coalition, Alliance of Tribal Coalitions

to End Violence, Mending the Sacred Hoop,
Standpoint, Gender Justice, and Our Justice

Subscribed and sworn to before me this 23rd day of February, 2021.
Lam duly authorized under the laws of the State of Nebraska to administer oaths.

GENERAL NOTARY-State of Nebraska
i RENEE J. GOSS 9.
pf My Comm. Exp. September 5, 2023

Notary Public

 

E-Mail Address:
contact@cocklelegalbriefs.com

www.cocklelegalbriefs.com

Odea h. Ahh

Affiant

40699
Vincent Joesph Moccio
Bennerotte & Asscoiates P.A.
3085 Justice Way, #200
Eagan, MN 55121

(612) 799-5160
vincent@bennerotte.com
Counsel for Petitioner

Danielle Baudhuin Tierney
Axley Brynelson LLP

Two E. Mifflin Street

Suite 200

Madison, WI 53703

(608) 283-6712
dtierney@axley.com
Counsel for Respondents
